No. 19-511
IN THE

Supreme Court of the United States
FACEBOOK, INC.,
Petitioner,
v.
NOAH DUGUID, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 11th day of September, 2020, I caused three copies of the Brief for
salesforce.com, inc., as Amicus Curiae in Support of Petitioner to be served by thirdparty commercial carrier on the counsel identified below, and caused an electronic
version to be transmitted to the counsel identified below, pursuant to Rule 29.5 of the
Rules of this Court. All parties required to be served have been served.
Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Sergei Lemberg
LEMBERG LAW, LLC
43 Danbury Road
Wilton, CT 06897
(203) 653-2250
slemberg@lemberglaw.com

Counsel for Facebook, Inc.

Counsel for Noah Duguid
Jeffrey B. Wall
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States

